No. 19-568

In the Supreme Court of the United States
JOSE SUSUMO AZANO MATSURA, PETITIONER
v.
UNITED STATES OF AMERICA
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

MEMORANDUM FOR THE UNITED STATES

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

In the Supreme Court of the United States
No. 19-568
JOSE SUSUMO AZANO MATSURA, PETITIONER
v.
UNITED STATES OF AMERICA
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

MEMORANDUM FOR THE UNITED STATES

Petitioner contends (Pet. 10-12) that his conviction
for possessing a firearm as an alien admitted to the
United States under a nonimmigrant visa, in violation
of 18 U.S.C. 922(g)(5)(B) and 924(a)(2), is infirm because
the courts below did not recognize that knowledge of
status is an element of that offense. In Rehaif v. United
States, 139 S. Ct. 2191 (2019), this Court held that the
mens rea of knowledge under Sections 922(g) and
924(a)(2) applies “both to the defendant’s conduct and
to the defendant’s status.” Id. at 2194. Accordingly, the
appropriate course is to grant the petition for a writ of
certiorari, vacate the decision below, and remand the
case for further consideration in light of Rehaif.*

*

The government waives any further response to the petition for
a writ of certiorari unless this Court requests otherwise.

(1)

2
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General

DECEMBER 2019

